OFFICE OF INSPECTOR GENERAL

FOLLOW-UP AUDIT OF
USAID/GUYANA’S PROGRESS
IN IMPLEMENTING THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF
AUDIT REPORT NO. 1-504-10-003-P
DECEMBER 29, 2009




SAN SALVADOR, EL SALVADOR
    Office of Inspector General


    December 29, 2009

    MEMORANDUM

    TO:             USAID/Guyana Director, Carol J. Horning

    FROM:           Acting RIG/San Salvador, Ismail Kenessy /s/

    SUBJECT:        Follow-Up Audit of USAID/Guyana’s Progress in Implementing the
                    President’s Emergency Plan for AIDS Relief (Audit Report No. 1-504-10-
                    003-P)


    This memorandum transmits our final report on the subject audit and six
    recommendations. We have considered management’s comments on the draft report
    and have incorporated them into the final report, as appropriate. Mission comments
    have been included in their entirety (without attachment) in appendix II.

    On the basis of your management comments and other information you submitted, we
    consider that final action has been taken on all recommendations except
    recommendation 4. We ask that you provide us with written notice within 30 days
    regarding any additional information related to actions planned or taken to implement
    this recommendation.

    I want to express my sincere appreciation for the cooperation and courtesy extended to
    my staff during the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. (503) 2501-2999—Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ............................................................................................................... 4

Audit Findings ................................................................................................................. 5

Did USAID/Guyana’s HIV/AIDS activities achieve their main goals?................................ 5

          Performance Targets Were Inconsistent............................................................... 7

          Some Results Reported by Implementing Partners
          Were Unsupported or Inaccurate .......................................................................... 8

          Local Subgrantees Need Codes of Conduct for
          Interactions with Orphans and Vulnerable Children ............................................ 11

          Opportunities to Move Toward Sustainability ...................................................... 12

Were the actions taken by USAID/Guyana in response to the
recommendations in Audit Report No. 1-504-06-005-P effective?.................................. 14

Evaluation of Management Comments ....................................................................... 18

Appendix I—Scope and Methodology......................................................................... 20

Appendix II—Management Comments........................................................................ 22

Appendix III—Abbreviations ........................................................................................ 28
SUMMARY OF RESULTS
On May 27, 2003, President George W. Bush signed the United States Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003, 1 the initial legislative
authorization for the President’s Emergency Plan for AIDS Relief (PEPFAR). The
legislation originally provided $15 billion over 5 years to carry out this act. Of this
amount, the President requested that Congress commit $10 billion to turn the tide
against AIDS in the most afflicted nations of Africa and the Caribbean. In Guyana, the
PEPFAR 5-year goals through fiscal year (FY) 2008 were to prevent 14,000 HIV
infections, provide palliative care and support services to 9,000 persons infected or
affected by HIV/AIDS, and provide treatment to 1,800 HIV-infected people. USAID
received $14.5 million of the $23.8 million in funding provided by the Guyana HIV/AIDS
program in FY 2008, and $11.4 million of the $20.5 million in funding in FY 2009 (see
page 3). USAID/Guyana-funded HIV/AIDS activities have been implemented through
contracts with the following three organizations (see page 4):

      •   Family Health International (FHI), a contract ending in FY 2009, for a total cost of
          $23.5 million

      •   Management Sciences for Health, a contract from April 2009 through December
          2012, for an estimated total cost of $8.9 million

      •   Community Support and Development Services, Inc., a contract from May 2007
          through September 2009, for an estimated total cost of $6.7 million

The Regional Inspector General/San Salvador conducted this audit to determine
whether USAID/Guyana’s HIV/AIDS Program has achieved its main goals and whether
the actions taken by USAID/Guyana in response to the recommendations in Audit
Report No. 1-504-06-005-P were effective (see page 4).

USAID/Guyana’s HIV/AIDS activities partially achieved their goals for FY 2008.
Specifically, USAID/Guyana substantially met or exceeded its performance targets for
the number of individuals who received services for prevention of mother-to-child
transmission of HIV, orphans and vulnerable children served, and individuals provided
with HIV-related palliative care. However, we could not determine whether goals were
achieved for voluntary counseling, testing services, or outreach programs because
reported results for three of six goals tested were not supported with adequate
documentation or were not always accurate (see page 5).

With respect to the second audit objective, USAID/Guyana’s actions were effective in
response to five of the nine recommendations in Audit Report No. 1-504-06-005-P and
partially effective in response to the other four. This report includes additional
recommendations to improve USAID/Guyana’s response to the previous audit findings
(see page 14).




1
    Public Law 108–25, 117 Stat. 711 (codified as amended in scattered sections of 22 U.S.C.).


                                                                                                 1
The audit disclosed that (1) three of the six planned targets in USAID/Guyana’s 2008
country operational plan were inconsistent with the aggregate subgrantee targets (see
page 7), (2) USAID/Guyana needs to take additional steps to improve the quality of data
from its recipients, subrecipients, and the Guyanese Ministry of Health (see page 8), (3)
there were allegations of sexual misconduct between a member of a subgrantee’s board
of directors and minor children participating in an orphan and vulnerable children
program (see page 11), and (4) although the mission has made progress in
implementing an exit strategy to promote sustainability with partner countries,
USAID/Guyana could take additional steps to foster sustainability, such as requiring
implementing partners to provide cost-sharing contributions or other forms of leveraging
(see page 12).

This report recommends that USAID/Guyana

   •   Require its contractors to develop and implement written procedures for
       subgrantees’ work plans that include approved targets tied to the overall
       USAID/Guyana President’s Emergency Plan for AIDS Relief targets (see page
       8).

   •   Require its contractors to develop and implement a written plan that provides
       monitoring procedures for subgrantees and confirms that results are accurate
       and supported by source documentation (see page 11).

   •   Provide and document training and administrative guidance to help the Ministry
       of Health prepare support documentation, including the submission of accurate,
       well-documented results, and report any limitations on data quality when
       reporting results from the ministry (see page 11).

   •   Provide training to its subgrantees regarding the appropriate methodology to use
       to calculate and report their results for outreach activities to avoid double-
       counting and request written reclarification from the Office of the U.S. Global
       AIDS Coordinator regarding the use of mass-media efforts for outreach results
       reporting (see page 11).

   •   Require its institutional contractor, Community Support and Development
       Services, Inc., to establish and document a standard code of conduct for all
       subgrantees with orphans and vulnerable children activities, outlining appropriate
       and inappropriate conduct in dealing with children in the program (see page 12).

   •   In the fiscal year 2010 agreements, include provisions and minimum
       requirements for cost share contributions (see page 14).

USAID/Guyana concurred with five of the six draft recommendations and took final
action in response to these five recommendations. A sixth recommendation—regarding
additional training to improve the calculation of outreach efforts—was revised in
response to mission comments, and a management decision is pending (see page 18).




                                                                                       2
BACKGROUND
During his State of the Union Address in January 2003, President George W. Bush
announced the President’s Emergency Plan for AIDS Relief (PEPFAR), which made a
5-year, $15 billion commitment to the fight against HIV/AIDS. Of this amount, $10 billion
is destined for 15 focus countries, including Guyana. The money supports (1) treatment
for HIV-infected people, (2) prevention of new HIV infections, and (3) care for people
infected with and affected by HIV/AIDS. On July 30, 2008, the President signed
legislation 2 authorizing up to $48 billion over the next 5 years to combat global
HIV/AIDS, tuberculosis, and malaria.

Guyana has a population of approximately 772,000 people, of whom about 13,000 have
been thought to be infected with HIV/AIDS, according to a 2007 estimate. The United
Nations Program on HIV/AIDS estimates a national HIV-prevalence rate among adults of
2.5 percent. However, higher HIV-prevalence rates were reported for some high-risk
populations such as female commercial sex workers (27 percent), male homosexuals
(21 percent), injecting drug users (17 percent), and persons who are tuberculosis
positive (14 percent).

The HIV/AIDS goal under the U.S. Government’s 5-year strategy for fiscal years (FY)
2004–2008 in Guyana was to prevent 14,000 HIV infections, provide palliative care and
support services to 9,000 persons infected or affected by HIV/AIDS, and provide
treatment to 1,800 HIV-infected people. To achieve this goal, the HIV/AIDS program
focuses on strengthening the capacity of the national health care system and
nongovernmental organizations (NGOs) to deliver effective and expanded HIV/AIDS
preventive care, palliative care, and treatment services. In Guyana, the program is
implemented collaboratively by a country team that is led by the U.S. Ambassador and
includes representatives from USAID, the Centers for Disease Control and Prevention,
the Peace Corps, and the Department of Defense.

USAID/Guyana is one of the main U.S. Government agencies supporting HIV/AIDS
activities in Guyana. USAID received $14.5 million of the $23.8 million in funding
provided by the Guyana HIV/AIDS program in FY 2008, and $11.4 million of the $20.5
million in funding in FY 2009. USAID/Guyana finances the following activities:

    •   Prevention—primarily prevention of mother-to-child transmission of HIV,
        promotion of abstinence and faithfulness, promotion of other prevention
        initiatives, and targeted approaches for most at risk populations.

    •   Care—provision of voluntary counseling and testing services; palliative care
        services that help improve the quality of life of individuals suffering from
        HIV/AIDS and their families; support for HIV/AIDS-affected orphans and
        vulnerable children; and treatment programs for opportunistic and sexually
        transmitted infections.



2
  The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008, Public Law 110–293, 122 Stat. 2918.


                                                                                        3
   •   Treatment—counseling and testing, antiretroviral therapy services, and
       strengthening the Ministry of Health’s systems to procure, warehouse, and
       distribute critical HIV/AIDS treatment and clinical management commodities.

USAID/Guyana-funded HIV/AIDS activities are implemented through the following
contracts:
   •   A contract with the Family Health International (FHI), totaling $23.5 million and
       ending in FY 2009, provided technical direction to a network of local NGOs and
       faith-based organizations that provided services to program beneficiaries. FHI
       also helped the Ministry of Health implement counseling and treatment activities.

   •   When the FHI contract ended in FY 2009, USAID entered into a contract with
       Management Sciences for Health from April 2009 through December 2012, for
       an estimated total cost of $8.9 million, to provide services similar to those FHI
       had provided.

   •   A contract with the Community Support and Development Services, Inc., from
       May 2007 through September 2009, for an estimated total cost of $6.75 million
       per a subsequent modification, to provide financial and administrative support to
       a network of 18 USAID-supported NGOs and faith-based organizations.

The mission’s 5-year HIV/AIDS strategy ended on September 30, 2008. The mission
has started the next phase of its strategy, covering the period from 2009 to 2013.

AUDIT OBJECTIVES
As part of its FY 2009 audit plan, the Regional Inspector General/San Salvador audited
USAID/Guyana’s progress in implementing HIV/AIDS activities to answer the following
questions:

   •   Did USAID/Guyana’s HIV/AIDS activities achieve their main goals?

   •   Were the actions taken by USAID/Guyana in response to the recommendations
       in Audit Report No. 1-504-06-005-P effective?

The audit scope and methodology are described in appendix I.




                                                                                      4
AUDIT FINDINGS
Did USAID/Guyana’s HIV/AIDS activities achieve their main
goals?
USAID/Guyana’s HIV/AIDS activities partially achieved their goals for fiscal year (FY)
2008. As shown in the following table, USAID/Guyana substantially met or exceeded its
targets for the number of individuals who received services for prevention of mother-to-
child transmission (PMTCT) of HIV, orphans and vulnerable children (OVC) served, and
individuals provided with HIV-related palliative care. However, we could not determine
whether goals were achieved for voluntary counseling and testing (VCT) services and for
outreach programs because reported results for three of six goals tested were not
supported with adequate documentation or were not always accurate. Therefore, it was
not possible to verify reported results or determine whether the results actually exceeded
the targets for three of the six indicators.

Table 1. USAID/Guyana’s Country Operational Plan Targets and Reported Results
for Indicators for FY 2008
                                                     Reported        Audited           Target
                Indicators                Targets
                                                      Results        Results           Met? 3
    Number of pregnant women who
    received HIV counseling and testing
                                          12,200      12,039          12,039            Yes
    for PMTCT and received their test
    results
    Number of individuals provided with
                                           500         1,170           1,170            Yes
    HIV-related palliative care
    Number of OVC served by OVC
                                           850         1,199           1,199            Yes
    programs
    Number of individuals who received
                                                                                       Not
    counseling and testing for HIV and    21,000      26,131       Unsupported
                                                                                    Determined
    received their test results
    Number of individuals reached
    through community outreach that                                                    Not
                                          38,300      54,025      Unsupported 5
    promote abstinence and/or being                                                 Determined
    faithful 4
    Number of individuals reached
    through community outreach that
    promotes HIV/AIDS prevention                                                       Not
                                          36,000      40,606       Unsupported
    through other behavior change                                                   Determined
    beyond abstinence and/or being
    faithful


3
  We consider that targets were substantially met if the reported results were within 5 percent.
4
  For the last two indicators in the table, the majority of results were reported by a subgrantee,
Merundoi, funded by the Centers for Disease Control and Prevention (CDC) until March 31, 2008.
USAID/Guyana began funding Merundoi in April 2008. The results reported in the table include
all FY 2008 results for Merundoi, including those results that occurred with CDC funding.
5
  A majority of the individuals reported as reached in the last two indicators may be ineligible to
be counted because of conflict with the definition of the indicator. In addition, there was double
counting of individuals reached. Please see a related finding on page 8.


                                                                                                 5
USAID/Guyana, along with its implementing partners and the Government of Guyana,
achieved some important results and impacts as follows:

   •   PMTCT activities included training for health professionals in conjunction with the
       Ministry of Health (MOH), HIV/AIDS counseling and testing of pregnant women,
       and nutritional counseling. PMTCT services were provided at 102 sites
       throughout Guyana, an increase from 43 sites in 2005. These 102 sites reported
       that they had provided HIV counseling and testing for 12,039 women, slightly
       below the target for FY 2008 of 12,200 women.

   •   In 2007, Family Health International (FHI) helped transition its PMTCT services
       and some VCT services as well as some of its personnel to MOH sites
       throughout the country. This allowed the ministry to take ownership of PMTCT
       and VCT health activities, thus fulfilling a major goal of the HIV/AIDS strategy.

   •   The program greatly exceeded its planned target of 500 individuals receiving
       HIV-related palliative care for FY 2008. Eleven subgrantees reported assisting
       1,170 individuals.

   •   USAID helped 12 subgrantees provide OVC services such as shelter and care,
       protection, health care, psychosocial support, and education.   These 12
       subgrantees reported serving a total of 1,199 OVCs for FY 2008, thereby
       exceeding the target of 850.



                                                                       This subgrantee
                                                                       provides voluntary
                                                                       counseling and
                                                                       testing, OVC services,
                                                                       and palliative care in
                                                                       Georgetown, Guyana.
                                                                       Photo taken by a
                                                                       RIG/San Salvador
                                                                       auditor on May 22,
                                                                       2009.




Although the mission reported that its overall USAID/Guyana HIV/AIDS targets had been
met or exceeded, we noted that planned targets for FY 2008 differed between the overall
USAID/Guyana HIV/AIDS targets included in the country operational plan and the
consolidated subpartner targets for a few performance indicators. In addition, reported
results were not always supported with adequate documentation or always accurate.
These and other findings are discussed below.




                                                                                           6
Performance Targets Were Inconsistent
Summary. According to guidance in USAID’s Automated Directives System (ADS),
performance indicators and targets must be established so that program performance
can be measured. However, the performance targets established for 3 of 6 HIV/AIDS
activities in Guyana were inconsistent among program documents, and 3 of 18
subgrantees reported results on several activities for which they did not include targets
in their work plans. Targets were inconsistent because no one had ensured that the
targets for the subgrantees added up to the overall program targets listed in the country
operational plan. Inconsistencies in the performance targets reduced their usefulness
and hindered the mission’s ability to assess progress under the program.

ADS 203.3.4.5 states that each indicator “should include performance baselines and set
performance targets that are ambitious, but can realistically be achieved within the
stated timeframe and with the available resources.” Furthermore, according to ADS
203.3.2.2, USAID missions and offices should use performance information to assess
progress in achieving results and to make management decisions on improving
performance.

However, for three indicators listed in the table below, the planned targets were
inconsistent among USAID/Guyana’s targets in the 2008 country operating plan and the
aggregate subgrantee targets.

Table 2. Comparison of Performance Targets
                                              Overall       Combined
                                                                            Percentage
        Performance Indicator              USAID/Guyana     Targets for
                                                                            Difference
                                              Target       Subgrantees
Number of orphans and vulnerable               850              902              6
children served by the program
Number of individuals provided with HIV-       500             1,091           118
related palliative care
Number of individuals reached through
community outreach that promotes
HIV/AIDS prevention through other             36,000          33,682            (6)
behavior change beyond abstinence
and/or being faithful


In addition, 3 of the 18 subgrantees did not include targets for FY 2008 in their work
plans, but they reported results on activities as follows:

    •   St. Francis reported 1,981 individuals reached through community outreach that
        promotes abstinence or being faithful, but its work plan did not include these
        performance targets for that indicator.

    •   Swing Star/FACT reported 41 OVCs served, but its work plan did not include
        OVC performance targets.




                                                                                         7
   •   Roadside Baptist reported 331 persons reached through community outreach
       beyond abstinence or being faithful, but its work plan did not include performance
       targets for that indicator.

According to mission officials, targets were inconsistent because USAID had set overall
targets during the country operational planning process, but the targets for the
subgrantees were set later during the subgrantees’ work plan process, and the mission
did not confirm that the targets for the subgrantees added up to the overall mission
program targets.

USAID/Guyana may have difficulty in assessing progress under the program because of
its failure to set performance targets as well as the significant inconsistencies between
program performance targets and implementing partners’ targets. When the cumulative
subgrantee target is less than the overall HIV/AIDs target, the overall target may not be
achieved. To avoid these situations, we are making the following recommendation:

   Recommendation 1.         We recommend that USAID/Guyana require its
   contractors to develop and implement written procedures for subgrantees’ work
   plans that include approved targets tied to USAID/Guyana’s HIV/AIDS program’s
   overall targets.

Some Results Reported by Implementing
Partners Were Unsupported or Inaccurate
Summary. According to ADS 203.3.5.1, performance data should meet data quality
standards, including standards for reliability and precision, and missions should take
steps to ensure that submitted data are adequately supported. However, reported
results for OVC activities for all four subgrantees and outreach activities for three of four
subgrantees were not fully supported or were inaccurate. In addition, reported results
for three of four MOH VCT sites visited and three of five PMTCT sites visited were
unsupported or inaccurate. These discrepancies occurred because implementers
lacked clear guidance on procedures for reporting on implementation activities and
reviewing the resulting data. As a result, the subgrantees’ and MOH’s results reported
do not accurately reflect USAID’s HIV/AIDS achievements in Guyana. Unsupported and
inaccurate reporting hinders the ability to determine whether program activities are
meeting their goals.

To enable USAID staff to manage for results and produce credible reporting,
performance data should meet data quality standards, including standards for
reliability and precision (i.e., data should be sufficiently precise to present a fair
picture of performance, according to ADS 203.3.5.1. Moreover, ADS 203.3.5.2
requires that missions perform data quality assessments and take steps to ensure that
submitted data are of reasonable quality and adequately supported. The ADS further
states that when missions conduct quality assessments of data from secondary sources
(including implementing partners, government counterparts, and international agencies),
the mission should focus the assessment on the apparent accuracy and consistency of
the data. According to the ADS, missions should consider visiting a broad range of sites
to assess whether reports accurately reflect conditions and events in the field. When a
mission provides technical assistance to a government ministry to improve data
collection and analysis, the mission may be in a good position to assess the quality of


                                                                                           8
the data. Finally, according to ADS 203.3.2.2, USAID missions should report information
candidly and communicate any limitations in data quality so that achievements can be
honestly assessed.

While visiting 5 of the 18 subgrantee project sites, we compared information included in
selected monthly progress reports to supporting documentation for FY 2008. We found
the following errors and discrepancies:

   •   OVC files lacked support for HIV testing. At four of the subgrantees visited, none
       of the OVC files included HIV testing documentation to support the HIV positive
       status of the parents. Of the 12 selected files, 3 contained no documentation that
       mentioned the HIV status of the child or the parent.

   •   Services provided to ineligible patients. In 1 of the 10 OVC files reviewed at
       Linden Care Foundation, a patient who was receiving services was not affected
       by HIV because neither he nor his parents were HIV positive. Only children
       affected by HIV/AIDS should be in the program.

   •   Double counting of beneficiaries. An implementer reported 2,927 individuals
       reached through community outreach.       However, a review of supporting
       documentation for 1,681 individuals reached through community outreach
       programs revealed double counting of 124 individuals, representing a 7 percent
       overstatement of results tested.

   •   Lack of documentation to support number of beneficiaries reached. Some
       outreach activities had no attendance lists to support the reported results. The
       subgrantee officials said that prisons and some primary schools did not want to
       have attendance lists. Of 69 annual outreach programs tested, which reportedly
       reached 1,354 individuals (exclusive of the prisons and schools that did not wish
       to have attendance lists), 17 outreach programs reportedly reached 317 people,
       representing 23 percent of results tested, but had no sign-in sheets. Subgrantee
       officials admitted that these 17 sites did not have sign-in sheets and were unable
       to provide an explanation.

   •   Errors in estimating methodology for deriving results. Reporting for two outreach
       indicators was based on an estimate of the number of people reached through a
       weekly radio program and the number of people reached through listening and
       discussion groups. The subgrantee estimated the total number of individuals
       reached on the basis of discussions with those leading the listening and
       discussion groups, who estimated that 30 percent of those attending the group
       sessions also had listened to the radio show. Therefore, according to this
       methodology, 30 percent of the individuals attending the group sessions had also
       been counted as individuals reached through listening to the radio program. The
       double counting caused an overstatement of 9 percent for the outreach indicator
       reporting the number of individuals reached through community outreach that
       promoted abstinence and/or being faithful and 6 percent for the number of
       individuals reached through community outreach that promoted HIV/AIDS
       prevention through other behavior change beyond abstinence and/or being
       faithful.




                                                                                       9
   •   Numbers of people reached did not meet the program definition. Reported
       results for individuals reached through outreach activities included estimated
       numbers of individuals reached via mass media—a factor that does not meet the
       program definition for community outreach. According to the program indicators
       reference guide, community outreach is defined as an effort to effect change
       through such means as peer education or information obtained in a classroom,
       small group, or one-on-one—not large-scale public gatherings. However, a
       subgrantee reported reaching 54,025 individuals through community outreach
       programs promoting abstinence and/or being faithful, of whom 52 percent
       (27,865) received the message through a weekly radio program. Similarly, the
       subgrantee reported reaching 40,606 individuals through community outreach
       programs promoting HIV/AIDS prevention through other behavior changes, of
       whom 48 percent (19,441) were listeners of a weekly radio program. It is not
       clear that a radio program meets the program definition of community outreach.

In addition to the problems mentioned above, results reported to FHI from MOH sites for
FY 2008 were unsupported or inaccurate as follows:

   •   Supporting documentation missing. A hospital reported 3,547 VCT patients
       served for FY 2008, but it was only able to provide supporting documentation for
       2 of the 12 months. Hospital officials explained that they were unable to provide
       support because the VCT site moved to a new location in July 2008, and
       consequently the audit could only verify 641 results. Therefore, 82 percent of the
       results for 3,547 VCT patients served could not be supported.

   •   Supporting documentation destroyed. Georgetown Public Hospital Corporation
       was unable to provide detailed supporting documentation (e.g., registers or
       patient files) to support the 1,048 VCT patients served because a fire had
       destroyed its records.

   •   Data entered erroneously. According to USAID/Guyana, in February and March
       2008, FHI incorrectly reported 140 VCT results from a facility that does not
       provide VCT services. In addition, a clinic underreported its PMTCT results by
       39 percent—it reported 317 PMTCT results, but its records showed 442 PMTCT
       results.

These discrepancies occurred because implementers lacked clear guidance on
procedures for reporting on implementation activities and reviewing the resulting data.
For example, the mission did not note the problems with MOH data because, according
to mission officials, the ministry has primary responsibility for its reported results and is
solely responsible for monitoring and verification of the results of its PMTCT and VCT
sites in MOH hospitals and clinics. Furthermore, the mission did not verify MOH results,
because, according to mission officials, USAID/Guyana does not have the resources to
monitor and verify results reported by MOH facilities.

The HIV/AIDS program relies on good data to support its programs and demonstrate
progress toward goals. However, as a result of the issues addressed above, the
mission’s reported results for HIV/AIDS achievements may not accurately reflect
USAID’s achievements in Guyana. To help ensure that USAID/Guyana reports accurate
and reliable data to USAID/Washington and the Office of the U.S. Global AIDS


                                                                                          10
Coordinator (OGAC), we are making the following recommendations:

   Recommendation 2.         We recommend that USAID/Guyana require its
   contractors to develop and implement a written plan that includes procedures for
   monitoring subgrantees and for confirming that results are accurate and
   supported by source documentation.

   Recommendation 3. We recommend that USAID/Guyana (1) provide and
   document training and administrative guidance to the Ministry of Health in
   preparing support documentation that requires the submission of accurate, well-
   documented results and (2) report any limitations on data quality when reporting
   results from the Ministry of Health.

   Recommendation 4. We recommend that USAID/Guyana (1) provide training to
   its subgrantees regarding the appropriate methodology to use to calculate and
   report their results for outreach activities to avoid double-counting and (2)
   request written reclarification from the Office of the U.S. Global AIDS Coordinator
   regarding the use of mass-media efforts for outreach results reporting.

Local Subgrantees Need Codes of Conduct for
Interactions with Orphans and Vulnerable Children
Summary.      According to guidance issued by OGAC, the guiding principles in
implementing programs for OVCs are rooted in the principles of child protection. The
mission received allegations of inappropriate behavior regarding one of the local
subgrantees in providing services to OVCs. This occurred in part because the
subgrantees did not have codes of conduct outlining appropriate and inappropriate
conduct when dealing with children in the program. Without codes of conduct regarding
appropriate conduct with OVCs, children in the program are put at risk.

According to guidance issued by OGAC in July 2006, the guiding principles of OVC
program implementation are rooted in the principles of child protection: developing and
implementing programs that place the best interests of the child and his or her family
above all else. Thus, programs should include efforts to confront and minimize the
reality of stigma and social neglect faced by OVCs, as well as abuse and exploitation,
including trafficking, theft of inherited property, and land tenure.

Of the 18 local subgrantees, 12 provide services to OVCs affected by HIV/AIDS. The
services include caregiver training, access to education, legal aid, emotional and
psychological care, and food and nutritional support. For FY 2008 the mission reported
assisting about 1,200 OVCs.

USAID/Guyana informed us that two former employees of one of the subgrantees have
accused the chairman of their board of sexual misconduct with minor children who
participate in the OVC program. The chairman denied these allegations but
acknowledged that children in the program have visited his home and that he has taken
children to fast-food restaurants. These extra-official interactions raise questions, since
they are outside the scope of the services provided by the program and the chairman’s
official duties do not require contact with children in the program.



                                                                                         11
These extra-official contacts occurred in part because the subgrantee did not have a
code of conduct or policies clearly outlining appropriate and inappropriate conduct when
dealing with children in the program. Of the other 11 subgrantees that provide services
to OVCs, only 1 had a code of conduct regulating staff interactions with OVCs, and this
code of conduct was required by another donor organization. The subagreements are
entered into and renewed annually.

Without clear policies regarding interactions with children in the program, the children
may be put at unnecessary risk. Because many of these children are poor and are
affected by HIV—for example, when a parent is infected with HIV or one or both parents
have died—they are especially vulnerable. Moreover, without clear policies, even well-
intentioned but unofficial contact with children in the program may be misconstrued.

We have referred the allegations of sexual misconduct to appropriate authorities for
investigation. In addition, to reduce the potential for such allegations in the future, we
offer the following recommendation.

    Recommendation 5.           We recommend that USAID/Guyana require its
    institutional contractor, Community Support and Development Services, Inc., to
    establish and document a standard code of conduct for all subgrantees with
    activities affecting orphans and vulnerable children, outlining appropriate and
    inappropriate conduct in dealing with children in the program.

Opportunities to Move Toward Sustainability
Summary. One characteristic of the HIV/AIDS legislation is the mandate for the U.S.
Government to promote sustainability with partner countries by strengthening country
capacity, ownership, and leadership. However, despite the mission’s efforts to
strengthen the Guyanese Government’s capacity and ownership of key components of
the HIV/AIDS initiative, sustainability without U.S. Government support is questionable.
The reason, according to mission officials, is the limited capacity of the Ministry of Health
and the local NGOs. Furthermore, the mission has not taken advantage of the options
available to promote more ownership of the projects, such as the inclusion of cost-
sharing requirements. As a result, the HIV/AIDS objectives will not continue to advance
without continued U.S. support.

In July 2008, U.S. legislation 6 reauthorized U.S. efforts worldwide to combat HIV/AIDS,
tuberculosis, and malaria for FY 2009–2013. The law authorized the U.S. Government
to establish compacts or framework documents with partner countries to promote a more
sustainable approach, characterized by strengthened country capacity, ownership, and
leadership. In addition, in response to the audit recommendation included in the 2006
OIG audit of USAID/Guyana’s PEPFAR program, the mission prepared an exit strategy
to address the issue of sustainability. This exit strategy calls for building the capacity of
a local system to ensure continuity long after USAID/Guyana’s assistance has ended.
Specifically, the exit strategy includes such strategies as obtaining MOH support for
NGOs and working with the private sector to generate support and resources for
HIV/AIDS media events and community efforts.

6
  Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008, Public Law 110–293, 122 Stat. 2918.


                                                                                          12
Moreover, ADS 303.3.10.1 says that USAID should consider including cost sharing in its
agreements when the program contains a rationale for cost sharing, such as helping to
ensure that the recipient will build its organizational capacity for resource mobilization, or
when it is critical that the activity continues after USAID assistance ends. Cost-sharing
requirements can ensure that the recipient establishes adequate alternate sources of
funding.

USAID has made progress in strengthening the Guyanese Government’s capacity and
ownership of key components of the HIV/AIDS initiative. Beginning in 2007, the MOH
assumed ownership of some PMTCT- and VCT-related health activities and personnel
who transferred to MOH positions in hospitals and clinics throughout the country. In
addition, USAID/Guyana continues to train MOH staff and provide technical assistance
by providing HIV supplies, test kits, and antiretroviral and other commodities. According
to several MOH hospital and clinic staff, the MOH distribution process works fairly well,
and stockouts of necessary test kits or commodities have been rare.

Nevertheless, USAID/Guyana officials acknowledge that parts of the exit strategy have
not been implemented and admit that local institutions lack sufficient capacity to
implement HIV/AIDS services. They will continue to need significant U.S. Government
support in the foreseeable future. For example, most NGOs receive almost all of their
funding from the HIV/AIDS program and would be unable to function or maintain the
same level of activity without continued financial and technical support. USAID/Guyana
has expected its contractors to provide assistance to strengthen the capacity of the
NGOs by including contract provisions for strengthening the financial management,
administrative, managerial, and technical capacity of partner organizations. However, as
noted earlier, NGOs still do not have the capacity necessary to operate autonomously.

USAID/Guyana could move toward sustainability in two additional ways, as follows:

   •   Cost sharing. None of the CSDS subagreements with the 18 local NGOs include
       requirements for cost-sharing contributions. Although cost sharing is not
       specifically required, USAID policy encourages its use in building NGO capacity.
       Given the decrease in the Guyana HIV/AIDS budget from $23.8 million in
       FY 2008 to $20.5 million in FY 2009, it is important for USAID partner
       organizations to find alternative means to fund their programs and ensure the
       partners’ long-term sustainability.     Even without a formal cost-sharing
       requirement, several NGOs are already seeking assistance from other sources.
       For example, when Youth Challenge Guyana (YCG) faced a shortage of financial
       resources, the organization worked with local communities to marshal additional
       resources to maintain its mobile unit. Similarly, some communities provided
       YCG staff with accommodations and food during their visits, freeing up cash
       resources that would have been spent on lodging and meals.

   •   Private sponsorship. The program supports a 15-minute radio drama that
       reaches an estimated 27,865 listeners weekly. However, the show’s producers
       have not secured corporate sponsorship that would help to provide sustainable
       revenues from the private sector to increase outreach activities. In addition,
       because the radio drama’s entertainment value attracts a larger audience, the
       private sector would be more willing to provide sponsorship.



                                                                                           13
Given the 14 percent decrease in HIV/AIDS Guyana budget between FY 2008 and
FY 2009, it is important for USAID/Guyana’s partner organizations to find alternative
means to fund their programs and ensure the partners’ long-term sustainability. If
partner NGOs are unable to secure additional support from other sources, their ability to
operate and provide services could be diminished.

   Recommendation 6. We recommend that USAID/Guyana, in the fiscal year
   2010 subagreements, include provisions and minimum requirements for cost-
   sharing contributions.

Were the actions taken by USAID/Guyana in response to the
recommendations in Audit Report No. 1-504-06-005-P effective?
The mission’s actions were effective in response to five of the nine recommendations.
However, the mission’s actions in response to four other recommendations were only
partially effective (see recommendations 3, 5, 6, and 9 below). This audit addressed
these issues further in response the first audit objective and included recommendations
to assist the mission further improve in these areas. The following paragraphs discuss
the recommendations made in the original report, the mission’s actions taken on those
recommendations, and conclusions concerning the effectiveness of the mission’s
actions.

Original recommendation 1. We recommended that USAID/Guyana obtain from
Family Health International (FHI) an action plan that includes a timeline and steps
needed to fully implement abstinence/be faithful activities, prevention of mother-to-child
transmission (PMTCT) mass media campaigns, palliative care, and orphan and
vulnerable children programs.

In response to the recommendation, USAID/Guyana requested and received a work plan
from FHI for each year following the 2006 audit. The work plan outlined an
implementation plan with timelines and steps that address abstinence and faithfulness
activities, PMTCT communication programs, palliative care, and orphans and vulnerable
children (OVC). The FHI contract ended in FY 2009, and the USAID/Guyana’s
HIV/AIDS program is now implemented by Community Support and Development
Services, Inc. (CSDS), and Management Sciences for Health (MSH). CSDS submitted
its FY 2009 work plan, which includes timelines for its objectives and activities. MSH’s
contract began in April 2009, and the mission anticipated receiving the work plan in June
2009.

We conclude that the mission’s actions to implement the recommendation were
effective.

Original recommendation 2. We recommended that USAID/Guyana, in coordination
with FHI, develop, disseminate, and support with onsite mentoring, detailed guidance on
implementing the palliative care and orphan and vulnerable children program
components for the benefit of participating subgrantees.

The mission agreed with the recommendation, and FHI provided detailed training to
subgrantee staff to reinforce OVC and palliative care guidance and foster the
development of skills in these areas. Teams conducted semiannual reviews of



                                                                                       14
subgrantees to examine program implementation and make recommendations for
program strengthening. OVC and palliative care was tailored for subgrantees, and
additional details and guidance were included in these guidelines.

Therefore, we conclude that the mission’s actions to implement the recommendation
were effective.

Original recommendation 3. We recommended that USAID/Guyana ensure that
performance indicators and their corresponding targets are developed consistently
among the various program documents.

USAID/Guyana stated that subgrantee targets had been developed using overall
program targets as a point of reference for each fiscal year. The mission noted that the
standard practice employed during target development had been to slightly inflate
targets at the implementer level to ensure that overall program targets are achieved.

However, as previously discussed, the planned targets for several indicators had been
inconsistent among overall USAID/Guyana HIV/AIDS targets derived from the country
operational plan and the aggregate subgrantee targets. Moreover, 3 of the 18
subgrantees had reported results on several activities for which no targets were included
in their work plans. Thus, we consider that the mission’s actions to implement the
recommendation were partially effective.

Original recommendation 4. We recommend that USAID/Guyana periodically evaluate
performance indicators to ensure that all indicators are necessary, relevant, and easily
understood by all concerned.

In response to the recommendation, the mission indicated that it had used annual
PEPFAR guidance to ensure that only necessary information was requested of
subgrantees. Any additional indicators not required by PEPFAR guidance had
measured program effectiveness or had met host government information needs. We
conclude that the mission’s actions to implement the recommendation were effective.

Original recommendation 5. We recommended that USAID/Guyana ensure that FHI
provides the Ministry of Health (MOH) and subgrantees with training and guidance that
ensures the submission of accurate, well-documented performance data on current and
cumulative progress toward achieving targets.

The mission agreed with the recommendation and provided technical support to the
ministry to strengthen the monitoring and reporting capabilities within the voluntary
counseling and testing (VCT) and PMTCT programs. FHI provided support to the
ministry for the review and revision of data collection and reporting systems and
sustained training of health care workers in the use of these systems. USAID
management stressed that neither USAID nor its contractor have the mandate or the
human resources to conduct sustained monitoring of data quality at health facilities. The
MOH took the lead in addressing these responsibilities. In support of the ministry’s
continuing efforts, USAID has successfully advocated for the establishment of a
monitoring and evaluation (M&E) unit within the National AIDS Program Secretariat and
has provided M&E training to the unit staff.




                                                                                      15
With regard to subgrantees, the mission’s contractors continued to support them to help
ensure accurate and comprehensive reporting. This support included developing M&E
guidance for subgrantees, developing standard monitoring tools to ensure
comprehensive data collection, and training subgrantees in the use of standard tools and
interpretation of monitoring and reporting guidance.

However, in several cases the data submitted to USAID by the ministry and subgrantees
were unsupported or inaccurate. Therefore, we consider that the mission’s actions to
implement the recommendation were only partially effective.

Original recommendation 6. We recommended that USAID/Guyana ensure that FHI
implements a monitoring plan that regularly validates the quality of data, including
supporting documentation, submitted by all subgrantees.

The mission agreed with the recommendation. FHI conducted semiannual data quality
reviews to verify the reported results. Subgrantees were required to submit supporting
documentation for training conducted. In addition, the strategic information officer hired
by USAID/Guyana has the responsibility of ensuring that systems utilized by contractors
and its subgrantees are capable of collecting accurate data.

However, in several cases subgrantees submitted data that were unsupported and could
not be verified. Thus, we conclude that the mission’s actions to implement the
recommendation were only partially effective.

Original recommendation 7. We recommended that USAID/Guyana arrange to modify
the current contract and any subsequent contracts with Maurice Solomon & Company to
better ensure that subgrantees receive adequate funds in a timely manner.

In May 2006, the USAID Regional Controller’s Office provided technical assistance to
Maurice Solomon to properly request and liquidate advances. The contract with Maurice
Solomon ended on June 30, 2007, and CSDS is now responsible for managing these
functions.

In interviews at five subgrantees, staff members indicated that there have been no
further problems of fund shortages, and financial resources have been available as
needed by partner organizations. We consider that the mission’s actions to implement
the recommendation were effective.

Original recommendation 8. We recommended that USAID/Guyana obtain evidence
that Maurice Solomon & Company has provided financial management training to
subgrantees so that the monthly liquidations can be completed accurately and on
schedule.

Maurice Solomon & Company provided annual financial training to subgrantees to
reinforce financial management practices.          As stated above, CSDS assumed
responsibility for grants management of subgrantees in May 2007. CSDS sends
monthly liquidation schedules to subgrantees to inform them of the timing and date of
upcoming liquidation visits.       During these liquidation visits, additional technical
assistance is provided to rectify any financial management issues encountered.




                                                                                       16
We conclude that the mission’s actions to implement the recommendation were
effective.

Original recommendation 9. We recommended that USAID/Guyana work with FHI
and Maurice Solomon & Company to develop a clear exit strategy for the HIV/AIDS
program in Guyana.

USAID/Guyana developed an exit strategy in December 2006. One aspect of this
strategy was to identify a sustainable, cost-effective solution to institutional capacity
building. The mission contracted CSDS, a local management organization that handles
institutional capacity and umbrella grants, to strengthen the financial and management
capacity of the subgrantees in the USAID network. In addition, four local consultants
provided technical assistance to subgrantees in the areas of organizational
development, governance, and human resource policies and practices. Moreover, MSH
will provide technical assistance to build subgrantees’ capacity. In keeping with
sustainability principles and the commitment to build local capacity, the PMTCT staff,
previously employed by the program, was transferred to the Ministry of Health. In
addition, the VCT mobile team was transferred to a local nongovernmental organization
(NGO), and the Guyana Business Coalition on HIV/AIDS will now perform some of the
tasks previously performed by the USAID/Guyana program.

Although USAID continues to try to build the capacity of local Guyanese organizations,
the majority are still unable to maintain their activities without continued USAID support.
Most rely almost exclusively on USAID funding to support their operational and
programmatic expenditures. In addition, the program contracted to CSDS was meant to
build the financial, human resource, and other internal policy functions of the NGOs,
even though some of these NGOs have been in existence for over 10 years. It remains
unclear whether, if ever, the NGOs will have sufficient administrative and financial
capacity to operate independently of USAID assistance.                Finally, although the
USAID/Guyana HIV/AIDS program successfully transferred many activities and staff
members to MOH, the ministry continues to rely on commodities support and technical
assistance provided by USAID and the HIV/AIDS program in general.

Thus, building the capacity of indigenous organizations and the host country to be
self-reliant in providing HIV/AIDS services continues to be a difficult task. Self-reliance
probably will not occur in the foreseeable future. Nevertheless, USAID can help by
having CSDS require subgrantees to provide minimum cost-sharing contributions and
secure additional funding from donors and the private sector.

Therefore, we consider the actions taken to address the recommendation were only
partially effective.




                                                                                        17
EVALUATION OF
MANAGEMENT COMMENTS
In its comments to the draft report, USAID/Guyana concurred with five of the six
recommendations and took final action in response to these five recommendations. The
mission did not concur with one draft recommendation; this recommendation has been
adjusted in response to the mission comments and a management decision is pending.

In response to the first recommendation, the mission and its contractors revised the work
plan guidance to ensure that summary NGO targets are consistent with
USAID/Guyana’s overall targets. In consideration of our review of the revised guidance,
we believe that final action has been taken on the recommendation.

In response to the second recommendation, the mission and its contractors developed a
new monitoring plan that includes an emphasis on enhancing data quality assurance
measures and procedures. The new plan addresses the need to ensure data quality
through regular site visits, developed procedures, and training. On the basis of our
review of the plan, we believe that final action has been taken on the recommendation.

In response to the third recommendation, USAID/Guyana completed a new performance
monitoring and evaluation plan. Sections of the plan detail the support to be provided to
the Ministry of Health in terms of enhancing data quality and improving reporting
procedures. The mission also agreed to utilize the “PEPFAR Annual Program Results”
report template to identify any concerns or shortcomings regarding data generated from
Ministry of Health facilities. In light of these comments and our review of the plan, we
believe that final action has been taken on the recommendation.

With regard to the fourth recommendation, the mission partially agreed. Although the
mission decided not to include in its results the estimated number of persons reached
through mass-media efforts, the mission did not agree that a new methodology for
calculating and reporting the results of other outreach efforts was needed. Instead, the
mission stated that additional training should be provided to improve the calculation of
results. According to the mission, such training and follow-up are central aspects of the
mission’s and contractor’s activities. In response, we have adjusted the fourth
recommendation to require a specific plan for such training and follow-up. A
management decision will be reached upon submission of this training plan.

In response to the fifth recommendation, the mission responded that Community
Support and Development Services, in collaboration with the Guyana HIV/AIDS
Reduction and Prevention project and the Ministry of Human Services and Social
Security, has developed a guide to codes of conduct. In addition, the mission stated that
training on the use of the document was conducted by the Director of Children Services,
Ministry of Human Services and Social Security, for all NGO personnel whose official job
responsibilities involve providing services to children. These comments and our review
of the document cause us to believe that final action has been taken on the
recommendation.




                                                                                      18
In response to the sixth recommendation, the grants manager at Community Support
and Development Services included language in the grantees’ subagreements to reflect
required cost-sharing contributions. For FY 2010, the subgrantees will provide a
5 percent cost-sharing contribution. After reviewing the new provisions, we believe that
final action has been taken on this recommendation.

Management comments (without attachment) are included in their entirety in appendix II.




                                                                                     19
                                                                                  APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards to determine whether
USAID/Guyana’s HIV/AIDS activities have achieved their goals and whether the actions
taken by USAID/Guyana in response to the recommendations in Audit Report No. 1-504-
06-005-P have been effective. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions, based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Audit fieldwork was conducted at USAID/Guyana from May 18 through
June 5, 2009. The scope of this audit included activities of USAID/Guyana’s HIV/AIDS
program carried out during fiscal year 2008, which were funded at $14.5 million.

In planning and performing the audit, we assessed the effectiveness of management
controls related to USAID/Guyana’s HIV/AIDS program. Specifically, we obtained an
understanding of and evaluated the country operational plan, the oversight and
monitoring performed by USAID/Guyana officials, and reports on actual program results.

During the audit, we interviewed USAID/Guyana officials, members of the U.S.
Government country team in Guyana, and officials of the organizations implementing the
program. We visited USAID/Guyana’s contractor, Community Support and Development
Services, Inc., and 5 of its 18 subgrantees. We interviewed Ministry of Health (MOH)
officials and visited the commodities warehouse operated by the ministry and USAID’s
contractor, Supply Chain Management Systems. We visited five MOH hospitals and
clinics that offer voluntary counseling and testing (VCT) and services for the prevention
of mother-to-child transmission of HIV.

At some MOH facilities, we were unable to verify reported results data because of a fire at
one facility, insufficient documentation at a facility that had moved its offices, and errors in
recordkeeping that prevented documentation from reconciling with reported results.

Methodology
To answer the audit objectives, we reviewed pertinent HIV/AIDS documents from the
mission and the selected partners, including the country operational plan and partner
work plans and annual reports. We judgmentally selected the number of sites to test
under six main indicators from all sites involved in providing services. Our audit included
testing from subgrantee and MOH sites. We also judgmentally selected a sample of
results reported by the implementer to verify whether the reported amounts were
supported and accurate. In selecting the sample, we chose months for which the
implementer had reported activity. We determined that, in comparison with the total
percentage of reported results tested, our sampling generally supported the audit’s
findings, conclusions, and recommendations. Lastly, we selected the six indicators
identified in table 3, below, for their significance to supporting program goals. The table
summarizes the percentage of sites and results tested for purposes of answering the



                                                                                             20
                                                                              APPENDIX I


audit objective.

Table 3. Percentage of Audit Coverage by Sites and Indicator
                                    Total    No. of   Percentage     Total    No. of    Percentage
           Indicators               No. of    Sites    of Sites     Results   Results    of Results
                                    Sites    Tested     Tested     Reported   Tested      Tested
 Number of pregnant women
 who received HIV counseling
                                       102        5            5     12,039    4,460            37
 and testing for PMTCT and
 received their test results
 Number of individuals provided
                                        11        3          27       1,170      514            44
 with HIV-related palliative care
 Number of OVC served by OVC
                                        12        4          33       1,199      772            64
 programs
 Number of individuals who
 received counseling and testing
                                        27        8          30      26,131   12,632            48
 for HIV and received their test
 results
 Number of individuals reached
 through community outreach
                                        17        3          18      54,025   44,666            83
 that promote abstinence and/or
 being faithful
 Number of individuals reached
 through community outreach
 that promotes HIV/AIDS
                                        17        4          24      40,606   29,878            74
 prevention through other
 behavior change beyond
 abstinence and/or being faithful

We validated performance results reported by USAID/Guyana by comparing the
reported information with supporting documentation such as log books, patient records,
and other data for selected months and selected activities. We used a materiality
threshold of 5 percent when disclosing inaccurate or unsupported reported results.




                                                                                         21
                                                                             APPENDIX II



MANAGEMENT COMMENTS


MEMORANDUM                                                  November 4, 2009


TO:            Catherine M. Trujillo, RIG/San Salvador

FROM:          Matthew Nims, Mission Director (a.g.)

SUBJECT:       Mission Comments on the Audit of USAID/Guyana’s President’s
               Emergency Plan for AIDS Relief Program

REF.:          RIG Audit Report No. 1-504-10-0XX-P


This memorandum contains USAID/Guyana’s response to the referenced RIG audit
report, which was transmitted to post on November 7, 2009. We commend the audit
team’s effort and believe that the President’s Emergency Plan for AIDS Relief (PEFAR)
program in Guyana will benefit from the draft report’s thoughtful recommendations. The
Mission appreciates the opportunity to respond to the draft report’s recommendations.

Audit Recommendation No. 1: The report recommends hat USAID/Guyana require
its contractors to develop and implement written procedures for subgrantees' work
plans that include approved targets tied to the overall USAID/Guyana President's
Emergency Plan for AIDS Relief targets.

The Mission agrees with this recommendation. The USAID/Guyana Mission has
continued to work to ensure that sub-grantee’s work plan targets are consistent with the
Mission's overall targets for the PEPFAR Country Operational Plan (COP) targets. In
response to the recommendations, USAID/Guyana and its contractors have revised the
work plan guidance. This document, completed December 2nd 2009, ensures that
summary NGO targets will be consistent with USAID COP targets, where relevant
(Attachment #1). Given that target setting for the COP involves dual planning timelines
and is affected by changing program decisions throughout the subgrantee planning
process, it will remain a challenge to ensure synchronicity.

Contrary to conclusions cited in the audit report, the Mission does seek to ensure that
these targets are consistent; however, it is acknowledged that those efforts may not have
been fully successful in the past. In the recent target-setting exercise for FY 2010, the




                                                                                        22
                                                                                APPENDIX II


Mission did take steps to ensure that targets in the subgrantee work plans are consistent
with USAID’s overall targets.

The Mission wishes to note however, that good target setting practice permits that the
sum of individual partner level targets are not automatically expected to equal
overall summary targets.

The PEPFAR COP guidance for fiscal year 2010 advises that, "The expected
accomplishments at the summary level are not simply the sum of the targets for a given
indicator across individual partners......The targets should be an accurate reflection of the
total de-duplicated reach of programs during the fiscal year period". Furthermore, good
target setting convention encourages the PEPFAR country team to make studied and
practical estimations of achievable targets based on the efforts of individual partners but
also considers the risk of individual partners being unable to fully reach or surpass
targets.

In light of this, the Mission believes that the sum of subgrantee targets does not need to
equal the overall PEPFAR target. However, it is acknowledged that expected subgrantee
targets should not be less or significantly greater (>25%) than overall Mission targets
(which was the audit team's findings for two (2) of the fifty (50) indicators).
In the event that unanticipated changes need to be made to subgrantee targets after
FY2010 COP targets are finalized, the Mission will be able to utilize an established
PEPFAR reprogramming opportunity that occurs in April of the fiscal year, to make any
revisions.

Audit recommendation No. 2: We recommend that USAID/Guyana require its
contractors to develop and implement a written plan that includes procedures for
monitoring subgrantees and for confirming that results are accurate and supported
by source documentation.

The Mission agrees with this recommendation and wishes to note that a new plan has
been developed by USAID/Guyana and its contractors. This plan, completed December
2, 2009, builds on the previous document with an emphasis enhancing data quality
assurance measures and procedures (Attachment #2).

The plan does discuss the support provided to subgrantees to address data quality through
regular site visits, developed procedures and training. The monitoring trips to the NGOs
which were semi-annual visits will now to be conducted quarterly. At each visit, the
NGO’s monitoring system and use of standardized tools will be assessed, weaknesses
identified, and guidance provided on how to improve the system. Additionally, periodic
monitoring and evaluation meetings will be held to provide the NGOs with refresher
training on monitoring and reporting systems, address weaknesses in reporting, share
experiences in the implementation of monitoring systems, and provide guidance in the
use of data for program management.
The Mission notes that some of the findings cited by the audit team to support the
recommendation concerning validity of source documentation are not consistent with


                                                                                       23
                                                                              APPENDIX II


PEPFAR guidance: specifically, with regard to the type of documentation required for
confirming the accuracy of results reported.
HIV test results for HIV-infected or affected children are not necessary for Orphan or
Vulnerable Child (OVC) to receive service. In a presentation made by the Senior
Technical Advisor for OVC at the Office of the Global AIDS Coordinator (O/GAC)
in September 2007 to clarify this issue, a slide stated, “a child does not need to be
infected, or an orphan, and does not need proof, but only possibility of parent being
chronically ill to be considered an OVC [orphan or vulnerable child] (Attachment 2 a -
slide 7). This broader definition of “OVC” is also a matter of Public Law. Public Law
110-293, which reauthorized the PEPFAR program in 2008, states: “orphans and children
who are vulnerable to, or affected by, HIV/AIDS.”
The current data collection system being employed by USAID and its partners is
appropriate in this instance. This method is widely accepted in other programs and is
considered appropriate to protect the privacy of clients seeking HIV-related services that
are still highly stigmatized in Guyana. This also explains why the existence of
participant sign-in sheets at community outreach events is not acceptable.

Audit recommendation No. 3: We recommend that USAID/Guyana:
a. Provide and document training and administrative guidance to the Ministry of
Health (MOH) in preparing support documentation that requires the submission of
accurate well-documented results, and
b. Report any limitations on data quality when reporting results from the Ministry
of Health

The Mission agrees that this recommendation is important and crucial. USAID/Guyana
and its contractors have recently completed a Performance Monitoring and Monitoring
Plan. This action was completed December 3rd, 2009. This plan contains sections
detailing the support to be provided to the Ministry of Health (MOH) in terms of
enhancing data quality and improving reporting procedures (Attachment #3).

(a.) USAID/Guyana, through its contractors, has been the main international partner
working with the Ministry of Health to establish program monitoring and reporting
systems for the last five years and is currently working in this capacity. Training and
administrative guidance to the Ministry of Health, particularly for the HIV Counseling
and Testing (C&T) and the Prevention of Mother to Child Transmission (PMTCT)
programs, have been important and ongoing aspects of the Mission program since its
inception.

Specifically, the USAID/Guyana and its contractors are responsible for the development
of monitoring and reporting systems and tools for both of these programs. Previously,
the Mission has supported the Ministry of Health through training and visits to a sub-set
of the 120+ PMTCT and 62 Voluntary Counseling and Testing (VCT) sites nationally to
address issues of data quality.

It is important to realize that prior to USAID’s activities in this sector no data, no
reporting and no organized monitoring occurred within the MOH in regards to these


                                                                                     24
                                                                               APPENDIX II


activities. Early on the Mission acknowledged the constraints it faced due to limited
human resources to be able to comprehensively monitor all VCT and PMTCT facilities.
Thus, the provision of training at the central level and the provision of sustained technical
support to MOH units in the field were designed to not only compensate for this
shortcoming, but to also strengthen the health service capacity of the Ministry as a whole.
This process continues and the Mission shares the audit team’s emphasis on data quality
and reporting systems.

Finally, the Ministry has recently established a Monitoring and Evaluation (M&E Unit)
within the National AIDS Program Secretariat (NAPS). Support to this unit is being
provided by a USAID-funded resident M&E Advisor, in addition to other M&E technical
assistance being offered to the Unit. Support to the Ministry of Health to improve
reporting procedures and data collection will remain a central tenet of USAIDs programs
in Guyana and the attached document is a good example of the assistance that will be
provided.

(b.) Because issues of human resource capacity and data quality at Ministry of Health
facilities is not an uncommon occurrence, PEPFAR will document any data issues that
may exist in the results that are reported to the Office of the Global AIDS Coordinator
(OGAC). Hence, the Mission will continue to utilize this section of the PEPFAR Annual
Program Results report template to identify any concerns or shortcomings regarding data
generated from Ministry of Health facilities and reported to OGAC.

Audit recommendation No. 4: We recommend that USAID/Guyana (a) require its
sub-grantees to revise and document the methodology they use to calculate and
report their results for outreach activities to avoid double-counting and
(b) request written clarification from the Office of the Global AIDS Coordinator
regarding the use of mass-media efforts for outreach results reporting.

(a.) The Mission disagrees with part of this recommendation. The Mission has provided
clear guidance to all its subgrantees regarding the methodology used to avoid double-
counting. All subgrantees with the exception of Merundoi (the NGO utilizing the
estimation technique in this unique case) utilize the same guidance regarding gathering
and reporting results on outreach activities. The instance of double-counting

(124 individuals out of a total of 2,927 individuals reported reached) that was uncovered
by the audit team was an isolated incident involving a very new M&E officer and, in the
Mission’s estimation, is not a reflection of flawed guidance but rather a demonstration of
the need for additional training for that individual. The training and follow-up is a central
aspect of the Mission’s and our contractor’s activities and will be continually revisited to
ensure all new M&E officers are oriented.

(b.) Regarding the separate issue of the estimation technique utilized by the local NGO,
Merundoi; approval was sought and granted from PEPFAR in Washington DC.
However, in light of the audit team's concerns and the desire to ensure no over-
representation of the ‘beneficiaries reached’ occurs, the Mission has made the decision to



                                                                                      25
                                                                            APPENDIX II


discontinue the use of this methodology. The Annual Program Results report for FY
2009 did not include results from Merundoi where the estimation technique was
employed. Further, until an alternative method is developed and approved again, the data
will not be reported for PEPFAR.

Finally, PEPFAR has stated that all U.S. agencies have agreed to comply with and follow
standardized PEPFAR reporting guidance. Currently and in the future PEPFAR does not
and will not require routine monitoring of mass-media at the output level. However,
mass-media activities together with other prevention activities are expected to contribute
to intermediate outcomes (changes in knowledge and behavior) and impacts (incidence).
These measures are monitored through surveys and surveillance.


Audit recommendation No. 5: We recommend that USAID/Guyana require its
institutional contractor, Community Support and Development Services, Inc., to
establish and document a standard code of conduct for all subgrantees
with activities affecting orphans and vulnerable children, outlining appropriate and
inappropriate conduct in dealing with children in the program.

The Mission agrees with this recommendation. Community Support and Development
Services Inc. (CSDS) has developed a document entitled, "Community Support and
Development Services Inc. - Guide to the Development of Child Protection Policies and
Codes of Conduct for Organizations working with Orphans and Vulnerable Children in
Guyana." (Attachment #4). This document, completed July 2009, was developed in
collaboration with representatives from the Guyana HIV/AIDS Reduction and Prevention
(GHARPII) project and the Ministry of Human Services and Social Security, Child
Protection Agency. In addition, training on the use of the document was conducted
by the Director of Children Services, Ministry of Human Services and Social Security for
all NGO personnel whose official job responsibilities involve providing services to
children.


Audit recommendation No. 6: We recommend that USAID/Guyana, in fiscal year
2010 sub-agreements, include provisions and minimum requirements for cost-share
contributions.

USAID’s NGO Grants Manager, Community Support and Development Services
Inc. (CSDS) has included the requisite language in the grantees’ sub-agreements to
reflect the cost-share contributions. For FY 10, the NGOs are providing 5% cost share
contributions. The provisions and minimum requirements for cost-share contributions
are contained in Attachment B, of the NGOs sub-agreement. (Attachment #5) This
revised procedure was instituted in July 2009 and is current policy.


Please note that this response contains six (6) attached documents. For ease, those
documents will be attached in one email. The attachments are listed below:



                                                                                      26
                                                                              APPENDIX II


#1 – Tri-partite plan for Sub-grantee proposal development and Finalization
#2 – CSDS Data Quality Assurance Plan
#3 – Guyana HIV_AIDS Reduction and Prevention Project_ME_Plan
#4 – CSDS Guideline – OVC
#5 – Cost Sharing doc




                                                                                   27
                                                               APPENDIX III



ABBREVIATIONS
ADS      USAID’s Automated Directives System

AIDS     acquired immunodeficiency syndrome

CDC      Centers for Disease Control and Prevention

CSDS     Community Support and Development Services, Inc.

FHI      Family Health International

HIV      human immunodeficiency virus

M&E      monitoring and evaluation

MOH      Ministry of Health

MSH      Management Sciences for Health

NGO      nongovernmental organization

OGAC     Office of the U.S. Global AIDS Coordinator

OVC      orphans and vulnerable children

PEPFAR   President’s Emergency Plan for AIDS Relief

PMTCT    prevention of mother-to-child transmission (of HIV)

SCMS     Supply Chain Management Systems

VCT      voluntary counseling and testing

YCG      Youth Challenge Guyana




                                                                        28
U.S. Agency for International Development
        Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202–712–1150
            Fax: 202–216–3047
            www.usaid.gov/oig
